                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-01674-256




   Combined Assessment Program 

             Review of the 

  Sioux Falls VA Health Care System 

      Sioux Falls, South Dakota 





July 25, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Sioux Falls VA Health Care System
                 FY             fiscal year
                 HPC            hospice and palliative care
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections ............................................................. 7

  Coordination of Care – HPC ................................................................................... 8

  Pressure Ulcer Prevention and Management ......................................................... 9

  Nurse Staffing ......................................................................................................... 11


Appendixes
  A. Facility Profile ....................................................................................................      12

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                               13

  C. VISN Director Comments ..................................................................................                  14

  D. Acting Facility Director Comments ....................................................................                     15

  E. OIG Contact and Staff Acknowledgments .........................................................                            18

  F. Report Distribution .............................................................................................          19

  G. Endnotes ...........................................................................................................       20





VA OIG Office of Healthcare Inspections
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
May 20, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following five activities:

   Quality Management

   Environment of Care

   Medication Management – Controlled Substances Inspections

   Coordination of Care – Hospice and Palliative Care

   Nurse Staffing

The facility’s reported accomplishments were pharmacy staff recognitions and
collaboration efforts, pharmacy system cost savings and improvements, and the enteral
feeding process redesign.

Recommendations: We made recommendations in the following activity:
Pressure Ulcer Prevention and Management: Perform and document patient skin
inspections and risk scale scores upon change in condition and/or at discharge, and
accurately document location, stage, and risk scale score for all patients with pressure
ulcers. Revise interprofessional treatment plans when patients’ risk levels change.

Comments
The Veterans Integrated Service Network Director and Acting Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 14–17, for
the full text of the Directors’ comments. We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections



VA OIG Office of Healthcare Inspections                                                           1
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD




                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through May 23, 2013,
and was done in accordance with OIG standard operating procedures for CAP reviews.
We also asked the facility to provide the status on the recommendations we made in our
previous CAP report (Combined Assessment Program Review of the Sioux Falls
VA Medical Center, Sioux Falls, South Dakota, Report No. 09-03747-15,
October 28, 2010).

During this review, we presented crime awareness briefings for 155 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and



VA OIG Office of Healthcare Inspections                                                           2
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
130 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Pharmacy Department
In April 2013, the South Dakota Society of Health-System Pharmacists recognized two
Pharmacy Department staff as pharmacist and pharmacy technician of the year.
Additionally, during FYs 2012 and 2013, pharmacy staff collaborated with nursing staff
to increase shingles immunization rates. During this time, shingles immunizations for
eligible veterans doubled from 20.3 to 42 percent. The Pharmacy Department also
exceeded its FY 2012 opportunity savings goal and fully implemented quarterly
pharmacy quality improvement, SafetyStock® for Omnicells, and carousel technology.

System Redesign of the Enteral Feeding Process
The enteral feeding process was redesigned using VA Vision, Analysis, Team, Aim,
Map, Measure, Change, Sustain/Spread (VA-TAMMCS) principles and tools. VISN 23
awarded the redesign team the STAR Award for their efforts. The team’s process
improvement tools, which include new pharmacy order sets, policies, training, and
competencies, have been shared for nationwide use.




VA OIG Office of Healthcare Inspections                                                           3
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                   Areas Reviewed                                          Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                                     4
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


 NC             Areas Reviewed (continued)                                    Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data se forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     5
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the emergency department; the primary care, physical therapy, and occupational
therapy clinic areas; the hemodialysis unit; all inpatient (locked mental health, medical-surgical,
and intensive care) units; and the two CLCs. We also inspected SPS. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
23 employee training and competency files (6 hemodialysis, 10 operating room, and 7 SPS).
The table below shows the areas reviewed for this topic. Any items that did not apply to this
facility are marked NA.       The facility generally met requirements.             We made no
recommendations.

 NC           Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                     
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning         
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.



VA OIG Office of Healthcare Inspections                                                                     6
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


 NC          Areas Reviewed for Hemodialysis                                  Findings
                          (continued)
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines         
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach         
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines         
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training                
       and competency assessment.
       Operating room employees who performed                  
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional           
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the pharmacy, and the emergency drug cache. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                         Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position descriptions included
       duties, and CS Coordinators completed
       required certification and were free from
       conflicts of interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     8
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (5 HPC staff records and 20 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                        Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 14 EHRs of patients with pressure ulcers (3 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
1 patient with a pressure ulcer at the time of our onsite visit), and 6 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were               Two of the applicable EHRs did not contain
       performed upon transfer, change in condition,        documentation that a skin inspection and risk
       and discharge.                                       scale were performed upon change in
                                                            condition and/or at discharge.
 X     Staff were generally consistent in                  Seven of the 14 EHRs did not contain
       documenting location, stage, risk scale score,       consistent documentation of the location,
       and date acquired.                                   stage, and/or risk scale score.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
 X     For patients at risk for and with pressure          For two patients with hospital-acquired
       ulcers, interprofessional treatment plans were       pressure ulcers, the interprofessional
       developed, interventions were recommended,           treatment plans were not revised when the
       and EHR documentation reflected that                 patients’ risk levels changed.
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    10
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


 NC            Areas Reviewed (continued)                                     Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that acute care staff perform
and document patient skin inspections and risk scale scores upon change in condition and/or at
discharge and that compliance be monitored.

2. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, and risk scale score for all patients with pressure ulcers
and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that acute care staff revise
interprofessional treatment plans when there are risk level changes and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                    11
                                          CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and 42 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for the acute medical/surgical
unit, CLC unit CLC-2, and the mental health unit for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                         Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    12
                                       CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD
                                                                                               Appendix A


              Facility Profile (Sioux Falls/438) FY 2013 through
                                  March 2013a
Type of Organization                                                               Secondary
Complexity Level                                                                   2
Affiliated/Non-Affiliated                                                          Affiliated
Total Medical Care Budget in Millions                                              $157.3
Number (through April 2013) of:
    Unique Patients                                                               23,785
    Outpatient Visits                                                             155,775
    Unique Employeesb                                                             751
Type and Number of Operating Beds:
    Hospital                                                                      34
    CLC                                                                           58
    Mental Health                                                                 6
Average Daily Census:
    Hospital                                                                      27
    CLC                                                                           57
    Mental Health                                                                 4
Number of Community Based Outpatient Clinics                                       5
Location(s)/Station Number(s)                                                      Spirit Lake/438GA
                                                                                   Sioux City/438GC
                                                                                   Aberdeen/438GD
                                                                                   Wagner/438GE
                                                                                   Watertown/438GF
VISN Number                                                                        23




a
    All data is for FY 2013 through March 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                 13
                                    CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD
                                                                                            Appendix B


                          VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    63.1            64.3            60.9             57.0             60.1             61.1
    VISN        66.9            70.5            57.9             59.3             58.7             60.4
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   15.3            10.6             9.4             19.6             26.6             18.2
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         14
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           July 5, 2013 


       From:           Director, VA Midwest Health Care Network (10N23)


       Subject:        CAP Review of the Sioux Falls VA Health Care System,

                       Sioux Falls, SD

       To:             Director, Denver Office of Healthcare Inspections (54DV)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       The purpose of this Memorandum is to submit the Director’s Comments to
       Office of Inspector General’s Draft Report of CAP Review of the Sioux
       Falls VA Health Care System, Sioux Falls, SD.




       Janet P. Murphy, MBA
       Network Director, VISN 23

       Enclosure




VA OIG Office of Healthcare Inspections                                                          15
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD
                                                                                        Appendix D
                      Acting Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           July 5, 2013

       From:           Acting Director, Sioux Falls VA Health Care System (438/00)

       Subject:        CAP Review of the Sioux Falls VA Health Care System,
                       Sioux Falls, SD

       To:             Director, VA Midwest Health Care Network (10N23)

       1. The purpose of this	 Memorandum is to submit the Director’s
          Comments to Office of Inspector General’s Draft Report of CAP
          Review at the Sioux Falls VA Health Care System, Sioux Falls, SD.

       2. If you have any questions or would like to discuss this response,
          please contact me at 605-333-6842.




       Sandra L. Horsman, MS
       Acting Director, Sioux Falls VA HCS

       Enclosure




VA OIG Office of Healthcare Inspections                                                          16
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
acute care staff perform and document patient skin inspections and risk scale scores
upon change in condition and/or at discharge and that compliance be monitored.

Concur

Target date for completion: September 30, 2013

Facility response:

In February 2013, the nurses at the Sioux Falls VA Health Care System (HCS)
completed competency validations on skin assessment and documentation
requirements.

Beginning, June 18, 2013, 100% of medical/surgical nurses will receive education on
VHA Handbook requirements regarding skin inspections and Braden risk scale. This
will be completed by July 2013.

Standardized audit tool developed with training completed on June 24, 2013, for all staff
involved in data collection. First audits to be completed by July 2013.

Monthly audits to assess compliance with skin inspections, Braden risk scale
documentation, and revision of treatment plans. Results to be reported at staff
meetings and to the Prevention of Amputation and Pressure Ulcers committee until
sustained compliance, starting August 2013.

Recommendation 2. We recommended that processes be strengthened to ensure that
acute care staff accurately document location, stage, and risk scale score for all patients
with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: December 2013

Facility response:

Effective February 2013, process change implemented for the staging of pressure ulcer
to be completed exclusively by Wound Care Certified (WCC) or Wound, Ostomy and
Continence nursing staff.




VA OIG Office of Healthcare Inspections                                                          17
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD


Beginning June 18, 2013, 100% of the medical/surgical nurses will receive education on
VHA Handbook requirements including the supporting roles of the Wound, Ostomy and
Continence Nurse and the WCC nurses. This will be completed by July 2013.

The Braden risk scale added to monthly New Employee Orientation, effective
June 6, 2013.

Braden risk scale added to WCC nurse’s competency assessment tool effective
June 6, 2013. WCCs to be competency assessed using tool by October 31, 2013.

Monthly audits to assess compliance with skin inspections, Braden risk scale
documentation, and revision of treatment plans. Results to be reported at staff
meetings and to the Prevention of Amputation and Pressure Ulcers Committee until
sustained compliance, starting August 2013.

Recommendation 3. We recommended that processes be strengthened to ensure that
acute care staff revise interprofessional treatment plans when there are risk level
changes and that compliance be monitored.

Concur

Target date for completion: December 31, 2013

Facility response:

Beginning June 18, 2013, 100% of the Sioux Falls VA HCS medical/surgical nurses will
receive education on VHA Handbook requirements including the supporting roles of the
Wound, Ostomy and Continence Nurse (WOCN) and the Wound Care Certified (WCC)
nurses. This will be completed by July 2013.

To raise awareness and promote the need for nursing to revise the treatment plans
when there is a risk level change, a “High Risk Score/Do More” campaign is being
initiated by the WOCNs by September 1, 2013. Greater than 90% of the Sioux Falls VA
HCS medical/surgical nurses will complete a read and sign of the educational material
on the “High Risk Score/Do More” campaign by November 30, 2013.

Standardized audit tool developed with training completed on June 24, 2013, for all staff
involved in data collection. First audits to be completed by July 12, 2013. Monthly
audits to assess compliance with skin inspections, Braden risk scale documentation,
and revision of treatment plans. Results to be reported at staff meetings and to the
Prevention of Amputation and Pressure Ulcers Committee until demonstration of
sustained compliance, effective August 2013.




VA OIG Office of Healthcare Inspections                                                          18
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Michael Bishop, MSW, Team Leader
Contributors            Laura Dulcie, BSEE
                        Stephanie Hensel, RN, JD
                        Randy Rupp
                        Ann Ver Linden, RN, MBA
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          19
                                CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Acting Director, Sioux Falls VA Health Care System (438/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Chuck Grassley, Tom Harkin, Tim Johnson, John Thune
U.S. House of Representatives: Steve King, Kristi Noem


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          20
                                        CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD
                                                                                                Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       21
                                        CAP Review of the Sioux Falls VA Health Care System, Sioux Falls, SD



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                  22
